(~
~~~lr
            DEPARTMENT OF HEALTH
            DEPARTMENT OF HEALTH &&HUMAN
                                   HUMN SERVICES
                                         SERVICES                                                     OFFICE
                                                                                                      OFFICE OF

                                                                                                       Offce
                                                                                                             OF INSPECTOR

                                                                                                       Office of
                                                                                                                INSPECTOR GENERAL


                                                                                                       Public Leger
                                                                                                       150 S.
                                                                                                                          GENERAL

                                                                                                               of Audit Services, Region m
                                                                                                                        Servce, Region
                                                                                                               LedgerBuilding,
                                                                                                                       Building,Suite
                                                                                                            S. Independence
                                                                                                               Independence Mall
                                                                                                       Philadelphia,
                                                                                                       Philadelphia,PA
                                                                                                                                  Suite316
                                                                                                                              Mal West
                                                                                                                     PA 19106-3499
                                                                                                                          19106-3499
                                                                                                                                       316
                                                                                                                                          m




                                                                JUL 1152009
                                                                JUL   5 2009



        Report Number: A-03-07-00034
               Number: A-03-07-00034

        Mr. Todd Kerr
                                  Chief Compliance Officer
        Senior Vice President and Chief
        Fresenius Medical
                  Medical Care
                           CareNorth
                                Nort America
                                      America
        920 Winter Street
        Waltham, Massachusetts 02451-1457

        Dear Mr. Kerr:

        Enclosed is the
                    the U.S.
                        U.S. Department of Health and Human Services
                             Deparment of                   Services (HHS),
                                                                      (HHS), Office of Inspector
                                                                             Office of
        General (OIG), final report entitled "Payments for Epogen Administered at Fresenius Medical
        Care-Brandywine,Wilmington,
        Care-Brandywine,      Wilmington,Delaware."
                                           Delaware." WeWewilwillforward
                                                                   forwarda acopy
                                                                              copyofofthis
                                                                                       thisreport
                                                                                            report to
                                                                                                    to the
                                                                                                        the HHS
                                                                                                            HHS
        action official noted on the following
                                     following page
                                               page for
                                                     for review
                                                          review and
                                                                  andany
                                                                       anyaction
                                                                           actiondeemed
                                                                                  deemednecessary.
                                                                                             necessar.

        The HHS action official will            wil makemake final
                                                                 final determnation
                                                                          determinationas  astotoactions
                                                                                                  actions taken
                                                                                                           taken on
                                                                                                                 on all
                                                                                                                    all matters
                                                                                                                        matters reported.
                                                                                                                                 reported.
        We     request
        We request that you that
                            respondyou
                                    to thsrespond       to30this
                                           official withn         official
                                                             days from the date within
                                                                                of 
                               ths letter.
                                                                                       30 days from the date of this    letter. Your
        response should present any comments or additional information that you believe may have a
        bearing on
        bearng       on the final determnation.
                                         determination.

        Pursuant to the Freedom of Information Act, Act, 5 U.S.c. §§ 552,
                                                                     552, OIG
                                                                          OIG reports generally are made
        available to the public to the extent that information in the report is not subject to exemptions in
        the Act. Accordingly, ths
            Act. Accordingly,   thisreport
                                     reportwil
                                            willbebeposted
                                                     postedon
                                                            onthe
                                                               theInternet
                                                                    Internetatathttp://oig.hhs.gov.
                                                                                http://oig.hhs.gov.

        If  you
        If you havehave     any orquestions
                    any questions   comments aboutor
                                                   
 comments about this    report, please
                                                                       ths report,  please do not
                                                                                              not hesitate to call me at
        (215)     861-4470        or  through      email at Stephen.Virbitsky@oig.hhs.gov,
        (215) 861-4470 or though email at Stephen.Virbitskv(goig.hhs.gov, or                   or contact
                                                                                                   contact Bernard   Siegel,
                                                                                                           Bernard Siegel,
        Audit     Manager, at (215) 861-4484
        Audit Manager,                         861-4484 or  or through email atBernard.Siegel(goi~.hhs.gov.
                                                               though email   atBernard.Siegel@oig.hhs.gov. PleasePlease refer
        to  report
        to report      number
                  number            A-03-07-00034
                         A-03-07-00034 in all. 
  in all. correspondence.

                                                                    Sincerely,


                                                                   )/tL ~
                                                                   )/tL~
                                                                    Stephen Virbitsky
                                                                    Regional Inspector General
                                                                      for Audit Services


        Enclosure
Page 2 - Mr.
         Mr. Todd Kerr


Direct Reply to HHS Action
                    Action Official:
                           Offcial:

Janet Samen
Director, Division of Chronic Care Management
Center for Medicare Management (CCPG/DCCM)
                                   (CCPGIDCCM)
Centers for Medicare &  & Medicaid Services
Mail Stop C5-05-07
7500 Security Boulevard
Baltimore, Maryland
Baltimore,   Marland 21244-1850
                       21244-1850
Janet.Samen
J anet. S amen @cms.hhs.gov
               (g cms.hhs.gov
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





       PAYMENTS FOR 

   EPOGEN ADMINISTERED AT

  FRESENIUS MEDICAL CARE –

        BRANDYWINE, 

   WILMINGTON, DELAWARE





                    Daniel R. Levinson

                     Inspector General 


                        July 2009

                      A-03-07-00034

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services administers the program.

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in section
226A of the Act. Benefits include injections of Epogen, usually administered during dialysis.
Individuals diagnosed with end-stage renal disease often suffer from anemia, and Epogen lessens
the effects of anemia for those patients. Epogen doses are generally adjusted by a physician
based on a review of the patient’s medical record. For facilities that use a preestablished dosing
algorithm, a nurse may also adjust the Epogen dose to maintain an optimal hematocrit (red blood
cell) level.

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

Fresenius Medical Care—Brandywine (Brandywine), located in Wilmington, Delaware, is one of
more than 1,500 renal dialysis facilities operated by Fresenius Medical Care North America.
Brandywine provides treatment for end-stage renal disease using 25 renal dialysis stations. It
received payments totaling $5,716,762 for Medicare services provided from January 1, 2004,
through June 30, 2006. Of this amount, $1,728,381 was for the administration of Epogen.
During our audit period, Brandywine did not use dosing algorithms.

OBJECTIVE

Our objective was to determine whether Brandywine administered, billed, and was paid for units
of Epogen consistent with the units that were ordered by attending physicians, as reflected in
Brandywine’s medical records.

SUMMARY OF FINDING

For 77 of the 100 sampled claims, Brandywine administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in
Brandywine’s medical records. However, Brandywine did not meet the Medicare payment
requirements for some dates of service for 23 claims (two of the claims had multiple errors). In
those instances, we identified discrepancies in Brandywine’s medical and billing records
between the units of Epogen ordered by the patients’ attending physicians and the units
administered to the patients, billed by Brandywine, and paid by Medicare.



                                                i
   •	 For eight claims with errors totaling $1,340, Brandywine’s medical and billing records
      reflected that more units of Epogen were administered to patients, billed by Brandywine,
      and paid by Medicare than were ordered by the patients’ attending physicians, resulting
      in overpayments.

   •	 For 10 claims, Brandywine’s medical and billing records reflected discrepancies between
      the units of Epogen ordered by patients’ attending physicians and the units administered
      to patients, billed by Brandywine, and paid by Medicare. For purposes of this report, we
      considered these errors procedural because they did not result in overpayments.

   •	 For seven claims, Brandywine’s medical records reflected errors in documenting the
      ordering and administration of Epogen but not discrepancies in the quantities of Epogen
      ordered, administered, billed, or paid. For purposes of this report, we considered these
      errors procedural because they did not result in overpayments.

The errors related to these 23 claims occurred because attending physicians and/or administering
nurses responsible for documenting and flagging the patients’ files for changes in ordered
Epogen amounts did not always follow the policy and procedures in the Fresenius Manual for
ensuring that changes in the units of Epogen ordered were properly identified and entered into
the Fresenius System, nurses did not always administer the ordered units of Epogen printed on
treatment sheets, and some Brandywine medical records did not identify the ordered or
administered units of Epogen. As a result, for eight claims, Brandywine received $1,340 in
overpayments and patients did not always receive the amounts of Epogen ordered by attending
physicians. When attending physicians’ orders are not followed, quality of care may be affected.

RECOMMENDATIONS

We recommend that Brandywine:

    •	 refund the $1,340 in overpayments, and

    •	 ensure that it follows policies and procedures that are consistent with Federal
       requirements in order to avoid discrepancies between the units of Epogen ordered by
       patients’ physicians and the units administered to the patient, billed by Brandywine, and
       paid by Medicare.

FRESENIUS COMMENTS

In comments on our draft report (see Appendix), Fresenius stated that it will contact the
intermediary about refunding the $1,340 in overpayments and that the nursing staff will undergo
a training program to improve compliance with policies and procedures relating to the ordering
and administration of Epogen. Fresenius also brought to our attention a technical correction
regarding its algorithm policy that we have amended in the report.




                                                ii
                                                 TABLE OF CONTENTS 


                                                                                                                                   Page

INTRODUCTION........................................................................................................................1 


          BACKGROUND ...............................................................................................................1         

              Medicare ...............................................................................................................1       

              Epogen Therapy for End-Stage Renal Disease Patients ........................................1 

              Medicare Requirements and Payments for End-Stage Renal Disease Services ....2 

              Fresenius Medical Care—Brandywine ..................................................................2                           

              Fresenius’s Policy Manual and Medical Information System ...............................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................3 

               Objective ................................................................................................................3    

               Scope......................................................................................................................3   

               Methodology ..........................................................................................................3        


FINDINGS AND RECOMMENDATIONS ..............................................................................4 


          FEDERAL REQUIREMENTS..........................................................................................5                     

               Medical Recordkeeping .........................................................................................5               

               Medicare Payment Procedures...............................................................................5                    


          CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS ..........5 


          CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED IN
           DISCREPANCIES...........................................................................................................7 

               Fewer Units of Epogen Administered, Billed, and Paid Than Ordered..................7 

               Epogen Not Billed by Brandywine .........................................................................7 


          CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN 

           DISCREPANCIES...........................................................................................................7 


          FRESENIUS POLICY AND PROCEDURES NOT ALWAYS FOLLOWED................8 


          RECOMMENDATIONS...................................................................................................9                 


          FRESENIUS COMMENTS ............................................................................................10                   


APPENDIX

          FRESENIUS MEDICAL CARE NORTH AMERICA COMMENTS




                                                                   iii
                                              INTRODUCTION                                                         


BACKGROUND

Medicare

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Epogen Therapy for End-Stage Renal Disease Patients

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. 1

Individuals diagnosed with end-stage renal disease often suffer from anemia, and Epogen lessens
the effects of anemia for those patients. The initial dose of Epogen is based on an individual’s
weight and hematocrit level, a measure of the percentage of red blood cells in the blood. The
target hematocrit level for dialysis patients receiving Epogen therapy is 30 to 36 percent, which
represents a hemoglobin level of 10 to 12 grams per deciliter. 2 For dialysis patients, hematocrit
levels above 36 percent can lead to increased risk of cardiovascular complications and death. 3

Epogen doses are generally adjusted by a physician based on a review of the patient’s medical
record. Some facilities may also use a preestablished dosing algorithm. An algorithm is a
formula established by attending physicians. It requires the nurse on duty to gather information
from the patient’s medical record and determine the correct dose of Epogen to maintain an
optimal hematocrit level. Based on the algorithm, a nurse may decrease, increase, or maintain
the Epogen dose or temporarily suspend the dose for one or more treatments. Fresenius Medical
Care—Brandywine (Brandywine) did not use dosing algorithms.




1
 Epogen is an “erythropoietin-stimulating agent,” manufactured by Amgen, which stimulates the production of red
blood cells.
2
    CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4.
3
 After our audit period, the Food and Drug Administration issued a black box label warning for Epogen that
“erthropoiesis-stimulating agents (ESAs) increased the risk for death and for serious cardiovascular events when
administered to target a hemoglobin of greater than 12 [grams per deciliter]….” Food and Drug Administration,
“Epogen Label,” March 9, 2007. Available online at http://www.fda.gov/cder/foi/label/2007/103234s51221bl.pdf.
Accessed on April 23, 2009.


                                                         1

Medicare Requirements and Payments for End-Stage Renal Disease Services

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No, 100-04, chapter 8, section 10.1,
specifies that renal dialysis facilities receive a composite rate for outpatient maintenance dialysis
services. The composite rate is a comprehensive payment for dialysis services except for bad
debts, physicians’ patient care services, separately billable laboratory services, and separately
billable drugs, including Epogen. CMS contracts with fiscal intermediaries 4 to process and pay
Medicare Part B claims for Epogen administered by renal dialysis facilities. Generally, for each
patient, providers submit one bill per month, which includes the charges for up to 14 dialysis
treatments, separately billable laboratory services, and separately billable drugs, including
Epogen. Providers submitted claims that identified the total units of Epogen administered to
each patient during the billing period, not the dose of Epogen administered during each
treatment. Payments for Epogen are subject to Medicare Part B deductible and coinsurance
requirements.

Fresenius Medical Care—Brandywine

Fresenius Medical Care North America (Fresenius), located in Waltham, Massachusetts, is a
wholly owned subsidiary of Fresenius Medical Care AG & Company KGaA, located in Bad
Homburg, Germany. Fresenius provides products and services for individuals with chronic
kidney failure.

Brandywine, located in Wilmington, Delaware, is one of more than 1,500 renal dialysis facilities
operated by Fresenius. Brandywine provides treatment for end-stage renal disease at 25 renal
dialysis stations. It received payments totaling $5,716,762 for Medicare services provided from
January 1, 2004, through June 30, 2006. Of this amount, $1,728,381 was for the administration
of Epogen.

Fresenius’s Policy Manual and Medical Information System

To assist in its facilities’ efforts to comply with requirements under Federal and State law,
Fresenius established a medical record policy and documentation procedures in its Policy
Manual No. 138-030-040-2 (Fresenius Manual). The Fresenius Manual requires that each
facility must develop a process to identify any change in the ordered prescription drugs and enter
the change and the treatment in Fresenius’s Medical Information System (Fresenius System).


4
 During the audit period, the Medicare Part B claims we reviewed were processed and paid by fiscal intermediaries.
The Medicare Modernization Act of 2003, P. L. No. 108-173, which became effective on October 1, 2005, amended
certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors replace
carriers and fiscal intermediaries by October 2011.


                                                         2

The Fresenius System prints a treatment sheet for each patient that lists selected patient
information from the previous treatment, the latest results of laboratory tests, and the required
services scheduled for the day’s treatment. The Fresenius Manual requires that each scheduled
service on the treatment sheet must be initialed or signed by the administering nurse, as
completed. The completed services, as well as any changes noted, must be entered into the
Fresenius System on a timely basis.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Brandywine administered, billed, and was paid for units
of Epogen consistent with the units that were ordered by attending physicians, as reflected in
Brandywine’s medical records.

Scope

Our review covered 2,424 monthly claims totaling $1,728,381 for Epogen administered by
Brandywine from January 1, 2004, through June 30, 2006.

We limited our review of Brandywine’s internal controls to the administration of and billing for
Epogen, including medical recordkeeping. The objective of our review did not require an
understanding or assessment of Brandywine’s complete internal control structure. We did not
determine the medical necessity of any items or services, including Epogen.

We performed fieldwork at Brandywine in Wilmington, Delaware, and the Fresenius
headquarters in Waltham, Massachusetts.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws, regulations, and guidance related to the treatment of
      end-stage renal disease, renal dialysis facilities, and the administration of Epogen;

   •	 reviewed applicable State laws, regulations, and guidance related to Brandywine’s
      policies and procedures and the Fresenius Manual;

   •	 reviewed Brandywine’s policies and procedures, including the Fresenius Manual, and its
      medical recordkeeping and billing practices;

   •	   interviewed Fresenius and Brandywine officials;

   •	 identified and assessed the adequacy of internal controls related to the administration of
      and billing for Epogen; and



                                                 3

   •   identified a sampling frame of all claims in the CMS claims history file with Epogen
       administered at Brandywine from January 1, 2004, through June 30, 2006, and:

       o	 selected from the sampling frame a simple random sample of 100 claims for Epogen
          totaling $75,078 and

       o	 for each sampled claim, compared the units of Epogen ordered by the Brandywine
          attending physician, administered to the patient, billed by Brandywine, and paid by
          Medicare to determine whether such units, as reflected in Brandywine’s medical and
          billing records were consistent with each other.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

For 77 of the 100 sampled claims, Brandywine administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in
Brandywine’s medical records. However, Brandywine did not meet the Medicare payment
requirements for some dates of service for 23 claims (two of the claims had multiple errors). In
those instances, we identified discrepancies in Brandywine’s medical and billing records
between the units of Epogen ordered by the patients’ attending physicians and the units
administered to the patients, billed by Brandywine, and paid by Medicare.

   •	 For eight claims with errors totaling $1,340, Brandywine’s medical and billing records
      reflected that more units of Epogen were administered to patients, billed by Brandywine,
      and paid by Medicare than were ordered by the patients’ attending physicians, resulting
      in overpayments.

   •	 For 10 claims, Brandywine’s medical and billing records reflected discrepancies between
      the units of Epogen ordered by patients’ attending physicians and the units administered
      to patients, billed by Brandywine, and paid by Medicare. For purposes of this report, we
      considered these errors procedural because they did not result in overpayments.

   •	 For seven claims, Brandywine’s medical records reflected errors in documenting the
      ordering and administration of Epogen but not discrepancies in the quantities of Epogen
      ordered, administered, billed, or paid. For purposes of this report, we considered these
      errors procedural because they did not result in overpayments.

The errors related to these 23 claims occurred because attending physicians and/or administering
nurses responsible for documenting and flagging the patients’ files for changes in ordered
Epogen amounts did not always follow the policy and procedures in the Fresenius Manual for
ensuring that changes in the units of Epogen ordered were properly identified and entered into


                                                4

the Fresenius System, nurses did not always administer the ordered units of Epogen printed on
treatment sheets, and some Brandywine medical records did not identify the ordered or
administered units of Epogen. As a result, for eight claims, Brandywine received $1,340 in
overpayments and patients did not always receive the amounts of Epogen ordered by attending
physicians. When attending physicians’ orders are not followed, quality of care may be affected.

FEDERAL REQUIREMENTS

Medical Recordkeeping

As a condition for coverage during our audit period, renal dialysis facilities were required to
centralize all clinical information in each patient’s medical record in accordance with accepted
professional standards and practices (42 CFR § 405.2139). 5 The medical records were required
to be “completely and accurately documented, readily available, and systematically organized to
facilitate the compilation and retrieval of information.” Subsection (a) of 42 CFR § 405.2139
further stated that medical records must contain certain general categories of information,
including “diagnostic and therapeutic orders; observations, and progress notes; reports of
treatments and clinical findings . . . .”

Medicare Payment Procedures

As a basis for payment, section 1833(e) of the Act states that “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due such provider or other
person under this part for the period with respect to which the amounts are being paid or for any
prior period.”

Federal regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information,
upon request, to determine whether payment is due and, if so, the amount to be paid.

CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS

For each sample claim, we compared Brandywine’s medical and billing records with respect to
the units of Epogen (1) ordered by the patients’ attending physicians, (2) administered by the
nurse to the patient, (3) billed by Brandywine, and (4) paid by Medicare. For eight claims (two
claims had two overpayment errors), Brandywine billed and Medicare paid for 168,000 units
more of Epogen, with questioned amounts totaling $1,340, than was ordered because there were
discrepancies in Brandywine’s medical and billing records between the units of Epogen ordered
by the attending physician and the units of Epogen administered, billed by Brandywine, and paid
by Medicare.

For eight claims (two claims had two errors) covering seven patients, Brandywine’s medical
records contained attending physicians’ orders that decreased the units or frequency of Epogen
prescribed, but an assigned staff member did not accurately record the changes in the Fresenius

5
 This condition for coverage was amended effective October 14, 2008. The amended condition for coverage is now
at 42 CFR § 494.170.


                                                      5

System. For five claims, the assigned staff member did not record the changed dose of Epogen
prescribed; consequently, the Fresenius System printed treatment sheets showing the incorrect
number of units, which were administered to patients, billed by Brandywine, and paid by
Medicare. For four claims, the printed treatment sheet correctly reflected the physicians’ orders
to administer Epogen during one or two of the patients’ treatments each week; however, nurses
administered Epogen on more days than was ordered. Brandywine administered, billed, and was
paid for 156,000 units more of Epogen, totaling $1,244, than was ordered, and Brandywine
billed and was paid for 12,000 units more of Epogen, totaling $96, than was ordered and
administered.

   •	 For four claims covering three patients, Brandywine’s medical records contained
      attending physicians’ orders that decreased the units of Epogen prescribed, but an
      assigned staff member did not record the change for two claims and incorrectly recorded
      the change for two claims in the Fresenius System. Consequently, the Fresenius System
      printed treatment sheets with incorrect units of Epogen, which were administered to the
      patients, billed by Brandywine, and paid by Medicare for one or more dates of service.
      In total, these three patients received, Brandywine billed, and Medicare paid for
      37,000 units more of Epogen, totaling $294, than was ordered.

   •	 For two claims covering two patients, Brandywine’s medical records contained attending
      physicians’ orders to administer Epogen during one or two of the patient’s three weekly
      dialysis treatments. During the month reviewed, two patients received the prescribed
      units of Epogen more frequently than ordered. In total, these two patients received,
      Brandywine billed, and Medicare paid for 30,000 units more of Epogen, totaling $240,
      than was ordered.

   •	 For one claim with multiple errors, Brandywine’s medical records contained attending
      physicians’ orders that decreased the units of Epogen prescribed. In April 2005, the
      physician order in the Brandywine medical records reflected an order for Epogen of
      2,000 units once a week on Monday. On May 11, 2005, the physician order was changed
      to 1,000 units once a week on Monday. Nurses did not administer the Epogen as
      reflected on the patient’s treatment sheet or did not update the Fresenius System to reflect
      the change in the physician’s order. Brandywine administered a total of 6,000 units of
      Epogen on 3 days that the physician did not order Epogen and administered a total of
      3,000 units more of Epogen than was ordered on 3 other days during May 2005. As a
      result, Brandywine administered and billed, and Medicare paid for 9,000 units more of
      Epogen, totaling $70, than was ordered by the attending physician.

   •	 For one claim with multiple errors, Brandywine billed and Medicare paid for units of
      Epogen in excess of the units of Epogen reflected on the patient’s treatment sheets.
      Because Brandywine medical records did not include the attending physicians’ orders for
      July 2004, we used the units of Epogen reflected on the prescribed section of the patient’s
      treatment sheets as the number of units ordered and administered by Brandywine.

       o	 From July 5 through July 19, 2004, the patient’s treatment sheets reflected a printed
          order to administer 40,000 units of Epogen during two of the three weekly dialysis


                                                6

             treatments; however, the two days were not identified. Nurses administered 40,000
             units of Epogen during the seven dialysis treatments from July 5 through July 19
             instead of five treatments. As a result, the patient received 80,000 units more of
             Epogen, totaling $640, than was ordered.

         o	 For July 19, the Brandywine treatment sheet reflected that Brandywine ordered and
            administered 40,000 units of Epogen but Brandywine billed and Medicare paid for
            52,000 units of Epogen. 6 Medicare paid Brandywine for 12,000 units more of
            Epogen, totaling $96, than was ordered and administered.

CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED IN DISCREPANCIES

For 10 claims, Brandywine’s medical and billing records reflected discrepancies between the
units of Epogen ordered by the patients’ attending physicians and the units administered to the
patients, billed by Brandywine, and paid by Medicare for one or more dates of service during the
month reviewed that did not result in an overpayment and are, for purposes of this report,
considered procedural errors. For five of these claims, patients received lower doses than
ordered. For five claims, Brandywine did not bill for one date of service for each claim.

Fewer Units of Epogen Administered, Billed, and Paid Than Ordered

For five claims, Brandywine’s medical records included attending physicians’ orders to increase
the units of Epogen but the changes were not entered into the Fresenius System on a timely basis.
As a result, the ordered amounts did not appear on the treatment sheets. For three claims, nurses
continued to administer the lower amounts for two to five treatments during the month reviewed
for three patients. However, for the remaining two claims, nurses administered fewer units than
the attending physician ordered for the months reviewed. The attending physician increased the
Epogen doses 1 to 2 months before the months reviewed. Brandywine administered, billed, and
was paid for fewer units of Epogen than ordered.

Epogen Not Billed by Brandywine

For five claims, the Brandywine medical records included attending physicians’ orders to
administer Epogen to five patients. For one date of service during the month reviewed, the
patient received the prescribed dose of Epogen but Brandywine did not bill and Medicare did not
pay for the units of Epogen ordered and administered. In total, Brandywine did not bill for
27,800 units of Epogen, totaling $215, that were ordered and administered.

CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN
DISCREPANCIES

In Delaware, the Nurse Practice Act requires that the authorized person administering a drug
“verif[y] the properly prescribed drug order, . . . records the time and dose given and assesses the
patient following the administration of medication for possible untoward side effects.”

6
 From July 21 through July 30, 2004, the patient’s treatment sheets reflected a printed order to administer 52,000
units of Epogen during each dialysis treatment.


                                                          7

(24 Del. C. § 1902(a)). To assist facilities in documenting compliance with Federal and State
requirements, the Fresenius Manual requires an order for all new medications or whenever a
medication dose changes, along with the signature of the ordering physician. Nurses are
responsible for ensuring that all medications provided to patients have accurately documented
physician orders. Administering nurses are required to sign or initial on the treatment sheet to
show that a medication, including Epogen, has been administered.

For seven claims, the Brandywine medical records reflected errors in documenting the ordering
and administration of Epogen. However, Brandywine billed for and was reimbursed for the units
ordered or administered.

       •	 For three of these claims, the treatment sheet for one date of service was not in the
          Brandywine medical record. Brandywine billed and Medicare paid for the units of
          Epogen prescribed by the attending physicians order for the period reviewed.

       •	 For two of these claims, the attending physicians’ orders for the months reviewed
          were not in the medical record. Although the physicians’ orders were missing for the
          month reviewed, the medical record included inpatient documents that reflected the
          patient received Epogen while in the hospital. Brandywine billed and Medicare paid
          for the units of Epogen reflected on the dialysis treatment sheets.

       •	 For one of these claims, the patient’s medical record lacked the signature/initials of
          the administering nurse, as required by Brandywine’s internal policies, including
          those in the Fresenius Manual. The administering nurse administered the units of
          Epogen consistent with the patient’s attending physician’s order, but did not sign or
          initial the treatment sheet to document the administration of Epogen for one date of
          service.

       •	 For one of these claims, the patient’s medical record did not include a physician order
          covering four dates of service following an inpatient hospital stay. During the
          inpatient stay, the patient received 15,000 units of Epogen with each dialysis
          treatment. Following the hospital stay, the Brandywine dialysis treatment sheets
          reflected that Brandywine administered and billed, and Medicare paid for 15,000
          units of Epogen for each of four dates of service.

FRESENIUS POLICY AND PROCEDURES NOT ALWAYS FOLLOWED

To assist in its facilities’ efforts to comply with requirements under Federal law and the States’
respective Nurse Practice Acts, Fresenius established the Fresenius Manual, which includes
medical record policies and documentation procedures. The Fresenius Manual requires that each
facility develop a process to record in the Fresenius System the results of each treatment and
changes to existing treatments, including the dose of Epogen to be administered.

   •	 The Fresenius System prints a treatment sheet for the patient’s next treatment.
      Administering nurses and patient care technicians provide treatment according to
      instructions printed on treatment sheets and administering nurses must ensure that all


                                                 8

        medications provided to the patient have been accurately documented with signed
        attending physician orders. Section A of the Fresenius Manual, “Physician Orders,”
        states that “[p]roviding service without physician orders is in violation of nurse practice
        acts.” Accordingly, the attending physician must provide a written order for an
        administering nurse to begin a new medication or to change the dose of a medication. 7

    •	 Each facility must develop a process by which the attending physician “flags” charts that
       have new or changed orders so that authorized support personnel can identify that a
       change has occurred and enter the change in the Fresenius System. Also, the Fresenius
       Manual identifies the duties and responsibilities for accurately documenting and updating
       its Fresenius System with changes to a patient’s treatment. After entry into the Fresenius
       System, those changes will be reflected on the patient’s next treatment sheet.

    •	 Results of a patient’s treatment, documented on the treatment sheet, must not be entered
       into the Fresenius System until the treatment is completed. A treatment sheet is
       considered completed after the administering nurse has given the treatment to the patient,
       administered all medications ordered, and confirmed the completion of these tasks by
       including their initials or signatures on the treatment sheet where appropriate.

Although Brandywine had controls in place as specified in the Fresenius Manual, based on our
review, Brandywine personnel did not always follow all of these procedures. Attending
physicians’ orders changing the dose of Epogen were not always identified and entered into the
Fresenius System on a timely basis. Therefore, changes to the attending physicians’ orders did
not always appear on subsequent treatment sheets. Administering nurses did not always
administer units of Epogen in accordance with the ordered dose printed on patient treatment
sheets resulting in patients receiving doses of Epogen that were not ordered by a physician.

Also, entries on the treatment sheet were not always initialed or signed, and in one case the
amount billed by Brandywine was greater than the units of Epogen ordered and administered.

RECOMMENDATIONS

We recommend that Brandywine:

     •	 refund the $1,340 in overpayments and

     •	 ensure that it follows policies and procedures that are consistent with Federal
        requirements in order to avoid discrepancies between the units of Epogen ordered by
        patients’ physicians and the units administered to the patient, billed by Brandywine, and
        paid by Medicare.




7
 The Fresenius Manual permits a physician to provide telephone orders; however, the physician must sign the order
during the next facility visit.


                                                        9

FRESENIUS COMMENTS

In comments on our draft report, Fresenius stated that it will contact the intermediary about
refunding the $1,340 in overpayments and that the nursing staff will undergo a training program
to improve compliance with policies and procedures relating to the ordering and administration
of Epogen. Fresenius also brought to our attention a technical correction regarding its algorithm
policy that we have amended in the report. Fresenius’s comments are included in the Appendix.




                                               10 

APPENDIX 

                                                                                      APPENDIX
                                                                                       Page 1 of 3




                                     V
                         Fresenius Medical Care
                                North America
   June 19, 2009

   Stephen Virbitsky
   Regional Inspector General for Audit Services
   Office of Audit Services, Region III
   Public Ledger Building, Suite 316
   150 S. Independence Mall West
   Philadelphia, PA 19106-3499

   Re: Audit Draft A.Q3-D7..()()034, Payments for Epogen Administered at
   Fresenius Medical Care-Brandywine, Wilmington DE

   Dear Mr. Virbitsky:

   Thank you for the opportunity to review and respond to your office's Draft
   Report.

   The results of this draft report are consistent with other Medicare claims
   reviews conducted internally by Fresenius staff (as part of Fresenius' ongoing
   compliance audit program activities) and with other external reviews such as
   CERT and PERM. Of the $75,078.00 in claims reviewed, $1.340 was
   identified by the audit as not eligible for Medicare reimbursement - reflecting
   1.73% of the sampled claims. This payment error rate compares favorably to
   the most recent May 2008 3.7% CERT national paid claims error rate.

   In response to these audit findings Fresenius will take the following steps:


   DIG Audit Recommendation:

   "ensure that it follows policies and procedures that are consistent with Federal
   requirements in order to avoid discrepancies between the units of Epogen
   ordered by the patients' physicians and the units administered to the patient,
   billed by Brandywine, and paid by Medicare-.

   Fresenius Corrective Action Taken or Planned:

   While the payment error rate is low, we recognize the need for the facility to
   improve its compliance with policies and procedures relating to the ordering
   and administration of Epogen. Therefore, the clinic will take the following
   steps:

Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street   Waltham, MA 02451-1457   (781) 699-9000
                                                                                          APPENDIX
                                                                                           Page 2 of 3




       •   All nursing staff will undergo an in-service program designed to inform
           the staff of: (a) the statutes and regulations relating to creating and
           maintaining medical record documentation; (b) the applicable
           Fresenius policies, including but not limited to documentation of
           physician orders and documentation of care furnished while the
           computer medical record is down; (c) the responsibility of each staff
           member to conform to applicable statutes, regulations, and policies;
           and (d) the consequences of failing to comply with applicable
           Fresenius policies. All new nursing staff members will continue to
           undergo Fresenius training which includes the foregoing topics.
       •   Consistent with the Part 494 Conditions for Coverage (42 CFR Section
           494.110 Condition: Quality assessment and performance
           improvement) for the next 12 months the facility's Quality Assessment
           and Improvement Process will review a sampling of active medical
           records to monitor improved compliance with applicable Fresenius
           medical record documentation policies.
       •   The 2010 Fresenius Compliance Audit program will include a review of
           (a) the training activity above, to ensure that all affected employees
           were trained; (b) the (quality improvement process) to ensure that the
           aforementioned reviews occurred; and (c) an assessment of whether
           the training and monitoring has been effective in causing the facility to
           conform to applicable Fresenius policies.

OIG Audit Recommendation:

"refund the $1,340 in overpayments-

Fresenius Corrective Action Taken or Planned:

   •   Given the age of these claims, we will contact the intermediary to
       determine the process to repay overpayments.


Finally, I note that in the Background section of the Introduction, the audit states:

       "Some facilities may also use a preestablished dosing algorithm. The
       algorithm is a fonnula established by the facility Medical Director and
       ordered by the physician.·

At Fresenius Medical Care clinics, while the facility Medical Director and
Governing Body review and approve algorithms ordered by staff physicians, it is
the staff physician (and not the medical director) who establishes the algorithm
for the staff physician's patients. While often all physicians at the clinic (including
the staff physician who serves as medical director) agree to use a single
algorithm, it is the staff physician rather than the medical director who establishes
an algorithm for a particular patient.
Frdenius Medical Care North America
Corporato Headquartors:   920 Winter Street   Waltham, MA 02451-1457 (781) 699·9000
                                                                                     APPENDIX
                                                                                      Page 3 of 3 





Sincerely,




Todd Kerr
Senior VICe President and Chief Compliance Officer
Fresenius Medical Care North America
920 Winter Street
Waltham, MA 02451




Fresenlul Medical Care North America
Corporate Headquarters;   920Wintef Street   Waltham, MA 02451·1457 (781) 699-9000
